March 14, 2011

DAVID E. WILLIAMS
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Network Distribution Center Activation Impacts
        (Report Number EN-AR-11-002)

This report presents the results of our audit of Network Distribution Center (NDC)
Activation Impacts (Project Number 10XG016EN000). This is the second in a series of
self-initiated NDC audits to address strategic, operational, and financial risks. Our
objectives were to assess the financial and operational impacts of the NDC activations
and determine whether the activations achieved anticipated benefits. See Appendix A
for additional information about this audit.

Because of external factors such as a severe economic downturn, mailers entering mail
closer to destinations, and electronic diversion of mail, the U.S. Postal Service has
experienced a substantial decline in mail volume. As a result, excess capacity is
growing in the mail processing network. Management realigned the bulk mail centers
(BMCs) into NDCs to help eliminate excess capacity and generate cost savings.

Conclusion

The NDC activations generally went well but not all projected benefits have been
realized. The NDC initiative generated approximately $111 million, or about 39 percent
of projected annual savings1 and a 10-percent improvement in package service
performance.2 To enhance saving opportunities, management could further improve
transportation use in the NDCs.3




1
  Based on the NDC Activation Executive Summary, October 4, 2010.
2
  Service measurements were not available for all classes of mail processed through the NDCs.
3
  Management anticipates additional NDC transportation savings in FY 2011 as solutions for the one-way
transportation imbalance created by the NDC initiative are implemented.
Network Distribution Center Activation Impacts                                                          EN-AR-11-002




                              Table 1: NDC Activation Savings Impact

                                 Projected                                      Dollar            Percentage
                                  Savings            Actual Savings            Shortfall           Achieved
                                                                    4
Transportation                  $217,727,029             $77,428,839        ($140,298,190)               36%
Operating Expenses                 65,143,027              33,901,588         (31,241,439)               52%
Total                           $282,870,056            $111,330,427        ($171,539,629)               39%

Transportation Savings

Management estimated transportation savings of $217.7 million from the NDC
activation; however, as of October 2010, actual NDC transportation savings were $77.4
million, which is 36 percent of the original projection. Some of the savings achieved may
also be the result of mail volume declines not necessarily attributable to the NDC
activation. Mail volume declines were approximately 5 percent in NDC facilities.

The savings shortfall occurred primarily because management underestimated the mail
volume between processing facilities created by the NDC initiative and the resulting
increase in surface transportation needed to realign the transportation network. Also,
trailer optimization continues to be a challenge despite management’s continued
monitoring. A review5 of NDC trailer utilization data indicated significant excess space
still exists. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Network Operations:

1. Ensure trailer capacity is being optimized to eliminate excess capacity in the
   transportation network.

2. Review trips in the Network Distribution Center network for additional consolidation
   opportunities.

Workhour Savings

Management estimated $65.1 million or 23 percent of NDC savings would come from a
reduction in workhours, with savings beginning 2 months after each of the four
activation phases.6 The final phase of the NDC activation was completed in
March 2010; however, actual workhour savings were only $33.9 million, about
52 percent of the projected savings. According to management, workhour savings
shortfalls occurred because only six of the 19 planned Surface Transfer Center (STC)

4
  Savings excludes $63.8 million in potential savings from the surface utilization local management initiative. These
potential savings from budget reductions could not be verified as related to NDC surface utilization.
5
  Excess trailer space was determined using NDC Average Utilization reports from Postal Service management for
Quarter IV of FY 2010.
6
  NDC initiative was comprised of four phases. Phase 1 activation began in May 2009, and the final phase was
completed in March 2010.




                                                           2
Network Distribution Center Activation Impacts                                                          EN-AR-11-002



consolidations7 into the NDC facilities have been implemented and the network
experienced higher than expected volume declines. Management stated they are still
evaluating opportunities to consolidate the other STCs into NDCs wherever possible.
We are not making a recommendation on workhours or productivity in this report as we
are planning an additional review on this issue. See Appendix B for our detailed
analysis of this topic.

Impact on Service

Although service performance scores for package services improved in the NDC
network, comprehensive data to measure service performance for all products was not
available. However, available data for retail package services showed almost a
10 percent performance improvement for fiscal year (FY) 2010, compared with data for
FY 2009. Also, Parcel Select®8 service performance improved slightly, increasing from
98.51 percent in FY 2009 to 98.77 percent in FY 2010. We are not making a
recommendation on this issue, because comprehensive service performance data for
the NDC network is expected to be available by the end of FY 2011. See Appendix B for
our detailed analysis of this topic.

Management’s Comments

Management agreed with the findings and recommendations. Specifically, for
recommendation 1, management initiated several strategies to reduce under-utilized
surface transportation capacity. Additionally, for recommendation 2, management
implemented a pilot program to evaluate the operational and business feasibility of
truckload consolidation and deconsolidation by terminal handling suppliers, which will
continue through the end of FY 2011.

See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the


7
  STCs are consolidation points for First-Class Mail® (FCM) and Priority Mail®.
8
 ‘Parcel Select’ is the registered trademark name for the Postal Service’s economical ground delivery service for
packages entered in bulk, including those entered at destination facilities. Parcel Select mailers (commercial mailers)
pay postage that reflects the degree of worksharing they do in presorting their parcels and/or drop shipping their
pieces at a destination facility located closer to the delivery point.




                                                           3
Network Distribution Center Activation Impacts                                EN-AR-11-002



Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, director,
Network Optimization or me at 703-248-2100.

     E-Signed by Robert Batta
   VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Pamela S. Grooman
    Frank Neri
    Luke T. Grossman
    Corporate Audit and Response Management




                                                 4
Network Distribution Center Activation Impacts                                                      EN-AR-11-002



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

BMCs were created in the early 1970s to support the distribution and transportation of
Standard Mail®,9 Periodicals,10 and Package Services.11 Declines in mail volume,
increased mailer participation in discounts for mail preparation, and mail entered closer
to destinations resulted in excess capacity and shrinking workloads at the 21 BMCs.

In May 2009, the Postal Service began the transition of BMCs into NDCs in four phases.
The transition was completed in late March 2010. See Chart 1 for timeline.

                                  Chart 1: NDC Activation Timeline


                                      NDC Activation

                   Phase 1              Phase 2               Phase 3               Phase 4
             • May 18‐July 17,    • August 10 –         • September 14 –      • October 19 –
               2009                 September 11,         October 9, 2009       November 20, 
             • 3 facilities         2009                • 5 facilities          2009
               • New Jersey       • 6 facilities          • Detroit           • 4 facilities
               • Springfield        • Seattle             • Pittsburgh          • Washington
               • Philadelphia       • Denver              • Atlanta             • Greensboro
                                    • San Francisco       • Memphis             • Jacksonville
                                    • Los Angeles         • Minneapolis         • Dallas
                                    • Kansas City                             • March 26, 2010
                                    • Des Moines                              • 3 facilities
                                                                                • Chicago
                                                                                • St. Louis
                                                                                • Cincinnati




The NDC concept was to fill containers and trucks early in the network and dispatch
them as deep into the network as possible. This was to be achieved by using three tiers
of consolidation opportunity:

   Eleven Tier 1 Sites, which are responsible for distribution of local (turn-around) and
    destination Standard Mail, Periodicals, and Package Services for the Tier 1 service
    area. Some will also handle STC containerization and dispatch operations.


9
  Standard Mail is matter not required to be mailed as FCM or Periodicals. It is used to send advertisements,
circulars, newsletters, small parcels, and merchandise.
10
   Periodicals mail is designed for newspapers, magazines, and other periodical publications whose primary purpose
is transmitting information to an established list of subscribers or requesters.
11
   Package Services includes Parcel Post®; Parcel Select®; Bound Printed Matter; Media Mail®; and Library Mail.
These services are used to mail merchandise, catalogs, printed material, and computer media.




                                                         5
Network Distribution Center Activation Impacts                                                                                                   EN-AR-11-002



    Six Tier 2 Sites, which include Tier 1 responsibilities and also perform distribution of
     the outgoing Standard Mail, Periodicals, and Package Services for assigned Tier 1
     sites.

    Four Tier 3 Sites, which include Tier 1 and Tier 2 responsibilities and are the
     consolidation points for less-than-truckload network volumes from Tier 2 sites. (See
     Chart 2 for NDC Locations).


                                                 Chart 2: NDC Locations


                                   Seattle NDC                                                            Philadelphia NDC


                                                                                                         Pittsburgh NDC
                                                                       Minneapolis NDC
                                                                                                                                           Springfield NDC
                                                                                                   Detroit NDC

                  San Francisco NDC
                                                                                                                                      New Jersey NDC
                                                                       Des Moines NDC    Chicago NDC


                                                 Denver NDC
                                                              Kansas City NDC                     Cincinnati NDC
                                                                                  St. Louis NDC                                     Washington NDC
                    Los Angeles NDC
                                                                                                                                Greensboro NDC
                                                                                     Memphis NDC
                                                                                                          Atlanta NDC

                                                                                                                        Jacksonville NDC
                                                                   Dallas NDC


                          Tier 1


                          Tier 2

                          Tier 3




The FY 2009 Summary Report to the Network Plan stated that the intent of the redesign
of the BMC network was to better align workhours with workload and improve utilization
of long-haul transportation.

Additional initiatives related to the NDCs were in progress at the time of this review that
will affect costs and potential savings for the facilities. These initiatives include moving
STCs and Logistics and Distribution Centers (L&DC) into NDCs, working Mixed States
distribution12 at some NDCs, and adding Flat Sequencing Systems (FSSs) into some
NDCs. Chart 3 provides additional information regarding these initiatives.




12
  Mixed states distribution is the residual volume remaining after a mailer presorts their volume to the depth of sort
required by mailing standards. These pieces are for delivery in the service area of more than one area distribution
center or automated area distribution center.




                                                                         6
Network Distribution Center Activation Impacts                                            EN-AR-11-002




                                  Chart 3: Other Initiatives at NDCs

              Other
            Initiatives                                          Affected NDCs
                               Washington – completed in November 2009
                               Chicago – completed in June 2010
                               Atlanta – completed in August 2010
                               New Jersey13 – completed in September 2010
               STC
                               Springfield – completed in October 2010
                               Dallas, Los Angeles, Memphis – in discussions with the areas
                               Other NDCs – to be determined based on space constraints and
                                potential to consolidate other operations
               L&DC            Philadelphia – completed in March 2010
                               Springfield – to be completed by April 2011
           Mixed States        Dallas, completed in October 2009
                               Los Angeles, Des Moines – completed in June 2010
                               New Jersey – to be completed in FY 2011
                FSS            New Jersey – 4 FSSs
                               Philadelphia – 1 FSS
                               Springfield – 4 FSSs

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to:

      Assess the financial and operational impacts of the NDC activation.

      Determine whether the activation achieved anticipated benefits.

To accomplish this review, we:

      Interviewed Postal Service Headquarters and area managers.

      Reviewed NDC activation documents, including briefings to stakeholders.

      Observed NDC operations at selected facilities.

      Analyzed key impacts of the activation, including transportation costs/savings,
       workhour costs/savings, productivity, and service.

      We used data from the following systems: Enterprise Data Warehouse, Activity
       Based Costing, TIMESWeb, and Transportation Contract Support System.

      We relied on data/reports from FYs 2009 through 2010.

13
     The New Jersey STC and the New York STC were consolidated into the New Jersey NDC.




                                                       7
 Network Distribution Center Activation Impacts                                                   EN-AR-11-002




 We conducted this performance audit from January 2010 through March 201114 in
 accordance with generally accepted government auditing standards and included such
 tests of internal controls as we considered necessary under the circumstances. Those
 standards require that we plan and perform the audit to obtain sufficient, appropriate
 evidence to provide a reasonable basis for our findings and conclusions based on our
 audit objectives. We believe that the evidence obtained provides a reasonable basis for
 our findings and conclusions based on our audit objectives. We discussed our
 observations and conclusions with management on January 14, 2011, and included
 their comments where appropriate.

 We assessed the reliability of computer generated data by interviewing postal managers
 knowledgeable about the data. We determined that the data were sufficiently reliable for
 the purposes of this report.

 PRIOR AUDIT COVERAGE

                                                  Final
                                                 Report
   Report Title           Report Number            Date                           Report Results
Time-Definite             EN-MA-09-001          3/20/2009       The concept of contracting out BMC operations
Surface Network                                                 may have merit; however, we identified 12 risks
Risk Mitigation                                                 associated with the BMC outsourcing initiative.
                                                                We recommended the Postal Service develop a
                                                                written plan to address risks and concerns before
                                                                moving forward. Management stated they were
                                                                no longer pursuing the outsourcing of BMC work
                                                                and would look at re-engineering product flows
                                                                through their current infrastructure. Management
                                                                agreed to take steps to mitigate those risks that
                                                                are relevant to the new direction.
Network                   EN-MA-10-001          11/6/2009       The NDC Phase 1 activation planning process
Distribution Center                                             appeared adequate, the execution of the plan
Phase 1 Activation                                              generally went well and the impact on operations
                                                                were mostly positive. Management could
                                                                enhance the process by completing customer
                                                                supplier agreements, and the Article 12 employee
                                                                excessing process earlier in the activation.
                                                                Management’s comments were responsive to the
                                                                recommendations.




 14
      The project was suspended from February 16 through April 26, 2010.




                                                           8
 Network Distribution Center Activation Impacts                                                EN-AR-11-002




                                              Final
                                             Report
    Report Title      Report Number           Date                            Report Results
Status Report on      EN-AR-10-001          1/7/2010       Mail volume decreased about 35 billion pieces
the Postal                                                 between FYs 2005 and 2009, but management
Service’s Network                                          has not been able to adjust resources to fully
Rationalization                                            offset the decrease in mail volume. Management
Initiatives                                                reduced 205.2 million workhours and 37 million
                                                           highway contract route miles, closed 68 airport
                                                           mail centers and 12 remote encoding centers,
                                                           realigned BMC operations with no BMC closures,
                                                           and consolidated originating mail operations at 13
                                                           processing and distribution centers (P&DCs) and
                                                           closed two P&DCs. Management’s comments
                                                           were responsive to the recommendations.
Full Service             DA-MA-11-        11/23/2010       Surveys of Full Service Intelligent Mail
Intelligent Mail          001(R)                           participants disclosed one-third of the
Program                                                    respondents described the program features as
Customer                                                   not useful. Non-participants explained the primary
Satisfaction                                               reasons they did not participate were high start-
                                                           up costs and limited program benefits. This
                                                           indicates that the Postal Service needs to re-
                                                           emphasize program benefits and offer incentives
                                                           to increase business mailer participation. Not
                                                           addressing these concerns could limit program
                                                           participation and customer satisfaction.
                                                           Management generally agreed with the findings
                                                           and recommendations.
U.S. Postal            GAO-09-674T         5/20/2009       Maintaining the Postal Service’s financial viability
Service: Network                                           will require rightsizing its retail and mail
Rightsizing                                                processing networks by consolidating operations
Needed to Help                                             and closing facilities and reducing the size of the
Keep USPS                                                  workforce. One major mail processing
Financially Viable                                         consolidation initiative management began was
                                                           the realignment of the 21 BMCs and the STCs
                                                           into what is referred to as NDCs.
U.S. Postal             GAO-10-455         4/12/2010       The Postal Service can reduce operational costs
Service: Strategies                                        by optimizing its mail processing network,
and Options to                                             eliminating excess capacity, and improving
Facilitate Progress                                        efficiency. GAO recommended Congress
toward Financial                                           consider a panel of experts to develop proposals
Viability                                                  for operational reform.




                                                       9
 Network Distribution Center Activation Impacts                                            EN-AR-11-002




                                             Final
                                            Report
   Report Title       Report Number           Date                        Report Results
U.S. Postal            GAO-10-731          6/16/2010    The Postal Service plans to integrate STC
Service: Mail                                           functions into the NDC network to eliminate
Processing                                              redundancy in transporting mail. Management
Network Initiatives                                     also plans to integrate other mail processing
Progressing, and                                        operations into the NDCs. Management projects
Guidance for                                            a cost savings of about $233.8 million in FYs
Consolidating                                           2010 and 2011 from reductions in workhours and
Area Mail                                               transportation costs. A definite timeline for STC
Processing                                              integration has not been established.
Operations Being
Followed




                                                   10
Network Distribution Center Activation Impacts                                                            EN-AR-11-002



                                  APPENDIX B: DETAILED ANALYSIS

Transportation Savings

The NDC initiative was projected to save $283 million, but only 36 percent of
transportation savings have been realized. An estimated $218 million (77 percent) of the
total savings was attributed to improved trailer utilization resulting in trip eliminations,
which were to be realized at the end of the implementation phase. However, at the end
of FY 2010, 6 months after the NDC implementation was completed, only 36 percent of
the projected savings had been realized. As noted in Table 2 below, surface additions
were a major factor in the overall savings shortfall.

                           Table 2: NDC Transportation Savings Impact

                                     Transportation15
                   Estimated Transportation Savings July 2009                        $217,727,029

                   Surface Additions                                                (278,890,032)
                   Surface Eliminations                                               222,750,390
                   Rail Elimination                                                    45,017,681
                   Air to Surface Eliminations16                                       88,550,800
                   Actual Savings October 1, 201017                                   $77,428,839
                   NDC Transportation Savings Shortfall                            ($140,298,190)


The NDC initiative improved utilization of long-haul transportation. Postal Service
management monitors and adapts its processing and transportation networks as
customer mailing patterns change, mail volume fluctuates, and new technologies
become available. This oversight has resulted in a 2-percent utilization improvement of
trips between NDCs, compared to the same period last year.18 Although hundreds of
highway and rail contract routes have been adjusted or eliminated, excess trailer space
remains on surface transportation.

A review of trailer utilization reports confirms excess space exists on trips to and from
the NDCs. According to postal management, trailer utilization percentage is based on
the target threshold. Specifically, the NDC has a goal of 80-percent utilization for trips
between NDCs. As noted in Chart 4, the majority of the NDCs did not meet the 80-
percent goal for inter-NDC19 transportation utilization, which averaged 62 percent.




15
   The majority of NDC mail is transported by surface, via highway contracts. Rail is transported by railroad.
16
   Savings from mail that formerly traveled on airline carriers that is now being transported via surface transportation.
17
   Savings excludes $63.8 million surface utilization local management initiative.
18
   Baseline was a 4-week average in April 2009.
19
   Inter-transportation are trips between NDCs.




                                                           11
Network Distribution Center Activation Impacts                                                        EN-AR-11-002




                        Chart 4: Trailer Utilization for Quarter IV, FY 201020




The NDC initiative has a 60-percent utilization goal for trips within the service area of
each NDC, which is called intra-NDC transportation. However, the trend for intra-NDC
transportation averaged 55 percent for the same timeframe (see Chart 5).

                         Chart 5: Trailer Utilization for Quarter IV, FY 2010




20
     Weeks of June 26, 2010, through October 1, 2010. No report for the week of September 18, 2010.




                                                         12
Network Distribution Center Activation Impacts                                                     EN-AR-11-002




Headquarters management continues to monitor NDC trailer utilization and encourage
trailer optimization and trip eliminations by providing the field with weekly NDC trailer
utilization reports and performing on-site transportation reviews.

Workhour Savings

The NDC initiative has reduced workhours in the NDC network but less than projected.
Postal Service management projected annual savings from operating expenses from
the NDC activation would be approximately $65 million with an estimated savings of
1.7 million workhours. However, only 864,000 workhours had been achieved through
the activation – the equivalent of $33.9 million annually (or 52 percent) of the original
projected savings. In FY 2010, NDC workload declined 5 percent compared to FY 2009,
which impacted workhour saving projections.

Impact on Service

While service performance scores for package services improved in the NDC network,
comprehensive data to measure service performance for all NDC products was not
available. However, the Postal Service has implemented a service performance
measurement system for a segment of retail and commercial package services.21
According to management, more comprehensive NDC service performance data is
expected to be available in late FY 2011.

Service performance for retail package services is measured from retail to delivery
using scanned retail packages with delivery confirmation. In FY 2010, performance for
about 12.8 million retail package mailpieces were measured; management estimates
this represents about 20 percent of the mail volume for all retail package services
products (see Table 3).

                Table 3: Retail Package Service Performance Comparison

                   Total Pieces Measured                    On-Time Pieces               Percent-on-Time
   FY 2009               12,369,803                            9,093,158                      73.5%
   FY 2010               12,823,255                           10,694,856                      83.4%

Based on available data, FY 2010 performance scores for this segment of package
services improved almost 10 percent22 compared to FY 2009 performance scores for
the same segment, but remained below established targets.23


21
   Service performance is measured on Retail Package Services with delivery confirmation and on Parcel Select
products (commercial package service) with a delivery scan.
22
   NDC activation began in mid-May of FY 2009, and performance may not reflect a true year-to-year comparison.
23
   Target on-time performance goal for FYs 2009 and 2010 was 90 percent.




                                                       13
Network Distribution Center Activation Impacts                                                 EN-AR-11-002



NDC activation began in week 33 of FY 2009 and was completed in week 25 of
FY 2010. A comparison of package service performance for weeks 33 through 52 of
FY 2010 showed a 5-percent increase compared to the package service performance
for the same period in FY 2009 (see Chart 6 for trend).

                 Chart 6: NDC National Package Service Performance Trends

 % On Time

    100%




     90%




     80%



                                                                                                      FY 2009
     70%
                                                                                                      FY 2010



     60%




     50%




     40%
             1   3   5    7    9   11 13 15 17 19 21 23 25 27 29 31 33 35 37 39 41 43 45 47 49 51
                                                         Week


Performance for Parcel Select package services is measured using a delivery scan. In
FY 2010, performances for about 272.3 million commercial package mailpieces were
measured (see Table 4).

                              Table 4: Parcel Select Performance Comparison

                         Total Pieces Measured                  On-Time Pieces         Percent-on-Time
  FY 2009                      218,097,502                       214,845,548               98.51%
  FY 2010                      272,351,597                       269,000,951               98.77%

The Postal Service does not have an established system to measure service
performance for all NDC mail volume. The package services volume measured for retail
and commercial package services represents about 14 percent of the total NDC
volume.




                                                          14
Network Distribution Center Activation Impacts                                                         EN-AR-11-002



In FY 2010 the NDC network handled more than 2 billion pieces,24 a decrease of about
5 percent from FY 2009.

                                          Chart 7: NDC Workload

                                   NDC                   FY 2009              FY 2010
                               Atlanta                    90,271,808          57,027,468
                               Chicago                   127,935,424          96,254,723
                               Cincinnati                101,980,185          88,340,520
                               Dallas                    143,885,595         247,527,192
                               Denver                    108,170,733          87,666,354
                               Des Moines                 56,141,918          89,885,772
                               Detroit                    83,736,384          50,566,902
                               Greensboro                113,573,914          97,937,340
                               Jacksonville              100,102,266          93,911,400
                               Kansas City                93,244,531          89,960,802
                               Los Angeles               122,579,588         111,342,596
                               Memphis                    88,056,291          84,724,621
                               Minneapolis                90,904,723          68,941,586
                               New Jersey                114,925,609         192,628,357
                               Philadelphia               83,264,833          79,445,880
                               Pittsburgh                 79,653,564          82,068,127
                               San Francisco              88,933,352          52,652,754
                               Seattle                   118,028,700          99,966,794
                               Springfield                92,972,217          55,658,506
                               St Louis                   53,123,002          60,629,842
                               Washington                200,325,535         151,898,752
                                 National              2,151,810,172       2,039,036,288

The Intelligent Mail Barcode® (IMb)25 pilot system was used to measure samples of
mail during the NDC activation phase. In the November 2010 Mailer’s Technical
Advisory Committee meeting, Postal Service management announced the first live IMb
full-service mail performance measurement results26 were disappointing.

In October 2010, management submitted a request to the Postal Regulatory
Commission for a temporary waiver from service performance reporting for certain
categories of Package Services, Periodicals, and all Standard Mail. According to
management, more comprehensive service performance data will be available by the
end of FY 2011.

24
   Total Pieces Handled in the NDC network is measured by handled units/containers, such as sacks or pallets.
25
   The IMb, formerly referred to as the 4-State Customer barcode, is a new Postal Service barcode that has the ability
to track individual mailpieces and provide customers with greater visibility into the mailstream.
26
   Results for July through September 2010.




                                                         15
Network Distribution Center Activation Impacts                                                          EN-AR-11-002



                                     APPENDIX C: OTHER IMPACT


              Finding                             Impact Category                            Amount
       Transportation Savings              Predicted Savings Shortfall27                    $140,298,190
       Workhour Savings                    Predicted Savings Shortfall                        31,241,439

                                           Total                                            $171,539,629




27
  Predicted savings shortfall is the difference between the savings predicted by the Postal Service for a project and
the actual savings realized, or the OIG estimate of savings that will be realized.




                                                          16
Network Distribution Center Activation Impacts              EN-AR-11-002



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                 17
Network Distribution Center Activation Impacts        EN-AR-11-002




                                                 18
Network Distribution Center Activation Impacts        EN-AR-11-002




                                                 19
